 

No. 20-157

 

IN THE
Supreme Court of the Anited States

 

EDWARD A. CANIGLIA,
Petitioner,
WY

ROBERT F. STROM, ET AL.,
Respondenis.

CERTIFICATE OF SERVICE

 

I, Brianne J. Gorod, do hereby declare that on January 15, 2021, as required
by Supreme Court Rule 29.5, I have served by first-class mail, postage pre-paid, the
Brief of Constitutional Accountability Center as Amicus Curiae in Support of

Petitioner on counsel for each party to the above proceedings as follows:

Shay Dvoretzky Marc DeSisto
Skadden, Arps, Slate, Meagher DeSisto Law

& Flom LLP 60 Ship St.

1440 New York Ave., NW Providence, RI 02903
Washington, DC 20005 marc@desistolaw.com
Shay.dvoretzky@skadden.com (401) 272-4442

(202) 371-7370

Counsel of Record for Respondents
Counsel of Record for Petitioner Robert Strom, et al.
Edward A. Caniglia

I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 15, 2021.

Brow ~ 4 dts

Brianne J>Gorod
Counsel for Amicus Curiae
